No. 19-

.31.11 the
6upretue Court of the Ziniteb aptateo

RICHARD J.
J. FIELDS,
Petitioner,
v.
DIANA PALMERI, OLGA PALMERI, VICTOR PALMERI,
CYNTHIA PALMERI and ANA GARZON YEPEZ,
Respondents.

On Petition for an Extraordinary Writ of Mandamus
to the New York Court of Appeals
REPLY BRIEF OF PETITIONER

RICHARD J. FIELDS
PETITIONER PRO SE
2830 PITKIN AVENUE
BROOKLYN, NY 11208
(718) 235-0900

NOVEMBER 8, 2019
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

RECEIVED
NOV 13 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

1

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES

ii

REPLY BRIEF OF PETITIONER

1

THIS COURT HAS STATUTORY JURISDICTION TO HEAR PETITIONS FOR WRIT OF
MANDAMUS

1

As THE MONIES ARE PENDING DISBURSEMENT FROM THE WILL, IT IS LUDICROUS FOR
THE NEW YORK COURT OF APPEALS TO
STATE THE ISSUE IS NOT RIPE FOR APPEAL

2

THE DOCUMENTED DECEPTION OF 96 YEAR
OLD BLIND MAN BY RESPONDENTS IS UNCONSCIONABLE

2

CONCLUSION

11

11

TABLE OF AUTHORITIES
Page
CASES
Marshall v. Marshall,
547 U.S. 293 (2006)

1

CONSTITUTIONAL PROVISIONS
U.S. Const. amend XIV

3

STATUTES
28 U.S.C. § 1331

1

28 U.S.C. § 1332

1

28 U.S.C. § 1651

1

JUDICIAL RULES
Sup. Ct. R. 20.4

1

1

-)00+443
REPLY BRIEF OF PETITIONER
I. THIS COURT HAS STATUTORY JURISDICTION TO
HEAR PETITIONS FOR WRIT OF MANDAMUS.

The Respondents devote the majority of their
argument on this Court's jurisdiction over probate,
rooted in Markham v. Allen, 326 U.S. 490 (1946).
Respondent argument is relevant to the primary
purpose of a writ of mandamus, "the issuance of a
Writ of Mandamus to the New York Court of Appeals
with directions that a final judgment is in place and
the appeal of the Petitioner is ripe for review."
(Pet.3). Contrary to the Respondent's assertion that
there is no Jurisdiction for this Court based on a so
called "probate exception", federal statutes, the Rules
of this Court, and widespread skepticism over the
existence of an "exception" weight against it.
To start, the Petition for Extraordinary Writ of
Mandamus is filed pursuant to Sup. Ct. R. 20.4, and
invokes this Court's mandamus powers under 28 U.S.C.
§ 1651. Modern federal court jurisdiction is defined
by Article III of the United States Constitution, 27
and 28 U.S.C. §§ 1331 and 1332.2.
This Court has recognized the shaky foundation
of the alleged "probate exception," In Marshall v.
Marshall, 547 U.S. 293 (2006), this Court stated that
there is no "probate exception" compelled by the text
of the Constitution or statute, stating that this
exception seemed to have arisen from "misty understandings of English legal history."

2

As THE MONIES ARE PENDING DISBURSEMENT
FROM THE WILL, IT IS LUDICROUS FOR THE NEW
YORK COURT OF APPEALS TO STATE THE ISSUE IS
NOT RIPE FOR APPEAL.

The Respondents do not properly address the core
of the mandamus petition—that "Nothing can have
more finality than such a judgment and the transfer
of assets away from his son and rightful heir, the
Petitioner, is imminent without the intervention of
this Court." (Pet.3) The New York Court of Appeals
and Appellate Division decided not to act upon the
mountain of evidence of fraud conducted by
Respondents to steal the funds of the decedent.
Instead, the New York courts refused to rule at all
stating "Such [appellate] order does not finally
determine the proceeding within the meaning of the
Constitution." (App .2a).
THE DOCUMENTED DECEPTION OF 96 YEAR OLD
BLIND MAN BY RESPONDENTS IS UNCONSCIONABLE.

NY Surrogate Court Judge Rita Mella in ignored
the testator's audiotaped statement that the 96 years
old man Sydney Fields could not read typed words
even with a magnifying glass. She considered the
execution was duly and ignored that the will was
never read aloud in front of witnesses for a blind
man. She believed all the affirmations made by the
Will drafter and requested no reference from him.
She did not care that a forge initial falsifies a will
and said "it does not need initial to make a will
valid".
In their Oct. 28 motion, they did not discuss
Sydney's vision problem at all. "Sydney could read"

3

was a perjury committed by Curtin and they dare not
repeat it. Since Sydney declared that he could not
read (App.56a) and Curtin admitted that he never
read the will aloud in front of the witnesses (App.85a86a, App.80a, line 18-line 25) the 2014 Will execution
was imposable duly and they announced the Will is
valid. This is a clear violation of Due Process under
the 14th Amendment.
Due to my mental disability, all these years I
have been receiving treatments under court order (App.
168a-169a) because without taking medicine I am
angry and might do things that I am not supposed to do.
I did sent letters and harassing pictures to my father
and half-brother but never actually hurt them. To
prevent me from doing stupid things, my father did
have me arrested in 1996 (App.192a-195a). However
he did not really blame on me because he knew I was
sick. You can read this in his 1997 Will in which he
still left me some money (App.131a, line 16) but gave
nothing to Kenneth who demanded my father end
the relationship with me. I did not have contact with
them since 1997, it made no sense that my father
forgave me right after the harassment happened, but
decided to later punish me seven years later in the
2004 Will. He did it because there was unduly influence and duress. In the last twenty years I was in
and out of mental hospitals and lost shelters a few
times. Still I stayed away from my father because I
did not want to bother him even though I loved him
very much. Diana Palmeri used such a sad situation
to deprive my right of inheritance from my father.
They kept using my father's words in 2006 to attack
me, poising him by saying that I hired a lawyer to get
my father's money. The fact is that my mother's lawyer

4

approached me himself. He kept all the money my
father saved for me since I was a child and gave me
nothing. I had no chance to complain that to my
father. Palmeri and her lawyers are doing the same
thing to me today. They said my father still hated his
sons and wanted to make sure we received nothing in
the 2014 Will. Curtin admitted in his deposition that
the words he used (App.89a) to attack me and Kenneth
were copied from 2006 Will and he insisted that my
father told him to do so.
They said in the Opposition Brief, p.27, line 4:
"Petitioner's lack of testamentary capacity under influence, duress, mistake or fraud, and that it was not
duly executed." They simply ignore our arguments by
making empty announcement. I therefore have to
repeat my points again:
Regarding their mistakes: I made it very clear
that the 2014 Will should be dismissed just for the
two mistakes it has. Their witnesses signed and said
that they saw the Testator was a woman not a man.
" . . . declared the same to be her last will . . . at her
request and in her presence . . . " (App.123a) The
affidavit that the witnesses signed typed the signing
date was July, 2006 and Curtin changed it with a
pen marking to October 6, 2014. (App.155a) Ignoring
what the document said itself they said that there were
no mistakes and said I lacked testamentary capacity.
Regarding the fraud: My handwriting expert
Mr. Baggett confirmed that the initial on the page
with the distribution % was a forgery. (App.109a-113a)
They made the judge believe that only when all the
initials and signature are forgery in the Will then the
forgery in that distribution page count. They also

said, "Our law does not require an initial to make Will
valid". Judge Mella there for ignored that a forged
initial could change the distribution of the 2014 Will.
(App.17a-18a).
The only instrument related to the "distribution
%" was also forgery. That paper has no date and
mentioned nothing about altering a will. It was
written identically with strong strokes and in straight
lines. (App.122a) It obviously was not written by a 96
year old blind man who could hardly control his pen
(App.123a, signature in the will) but was made by
cutting and pasting on the computer. As their only
back-up document that instrument had to be backed
up by Curtin's affirmations. He admitted that he did not
see Sydney write it but it was presented by Sydney
orally; the number on the note means a distribution
of all Sydney's assets; the % in the 2014 will was
different from the instrument because Sydney told him
to updated it through a phone conversation. Again
Curtin had no reference for any of his affirmation.
3. Regarding undue influence and duress: Diana
Palmeri's position is not important enough to unduly
influence Sydney. She made Teresa do it and caused
the Will altering in 2006. Teresa wanted to control
50% of Sydney's assets instead of giving that back to
the charity and Fields family eventually as the 1997
Will indicated. Getting blind day-by-day Sydney was in
a situation of duress and fell exclusively under Teresa's
influence. For keeping the charity he put his own
family members away and listed down some executions. However he noticed that someone behind Teresa
wanted his money. He ordered that the 50% Teresa
had must only forward to Victor Palmeri and nobody

6

could revoke it. He printed it clearly with his handwriting in a note for the 2006 Will. The long paragraph
at the end reflected that he was protesting and fighting
with someone. (App.144a-155a). As an English speaker
Curtin was impossibly mixing "his" and "her". It was
a woman who actually contacted him at that time
and that woman was Teresa.
Curtin committed perjury about the relationship between Sydney and the Palmeris. In his
affirmation of April 19, 2016 Curtin testified that
"Sydney had left the bulk of his estate to his wife in
the 2006 Will" and that is why "he provided for his
residuary estate to be distributed amongst members
of his deceased wife's family, whom he had come to
embrace as his own family." They said the 2006 and
2014 will "are in the same manner". Compared with
what Sydney said in the 2006 Will, Curtin's affirmations
are obvious perjury. Basing on that Curtin distributed
all Sydney's 100% asset, nine million dollars, to all
five Palmeris. However, neither Diana Palmeri nor the
7 affirmations from her witnesses could explain how
come Sydney gave his lovely wife Teresa only 50% but
gave the Palmeris 100% of his asset. They also could
not prove that why Sydney reduced the charity amount
from $4.5 million dollars to $1,500 and why he eliminated Lewis who had the same share as Victor in the
2006 Will but the 2014 Will gave Victor eventually
$3.6 million and left Lewis nothing.
I agree that Sydney tried to alter his will
immediately after Teresa died. From his action of
transferring funds before signing the Will I believed
he wanted to release his obligation to Teresa but not
to give all his assets to Palmeris. How he intended to

7

handle his assets after Teresa died is a big question.
It is not fair to release a $9 million dollar Will just
because Curtin said so. Curtin's perjured saying that
it was an aide but not any beneficiary who took
Sydney to the office that day. However, none of his
witnesses could tell her age, gender, race, or ethnic
group and could not provide the contact information for
the aide. Curtin's apartment has only one bedroom,
one office, and one living room. Judge Mella did not
question the situation and immediately concluded that
the beneficiaries did not involve the will altering "the
aide just sitting separate in the waiting area and no
one remembers her is acceptable." If Sydney meant
to give Palmeris all his estate why didn't he happily
bring them with him that day and at least got some
appreciation from them?
Another question is: How could Curtin know
beneficiary Ana Garzon Yepez's address: Francisco
Oliva 0e3-73 y Cap. Edmundo Chiriboga Casa # 46,
Quito Ecuador. Without Ana's involvement how could
Sydney convey that kind of long address to Curtin?
(The instrument that Sydney presented had only
names and numbers)
They jumped up to dismiss the only phone
records in this case which provide by Vanguard because
those records show us a totally different picture:
Two days before signing the will, Sydney
planned to transfer funds and told the broker
that he could not read typed words on paper
even with a magnifying glass. (App.56a)
Sydney refused to let Diana and Curtin involve the fund transfer and made Vanguard's
broker travel from Philadelphia to help him

8

fill out the required forms. (App.59a-60a)
Diana knew of those funds transferring eighteen months later after Sydney passed away.
Five months before Sydney died, he limited
Diana from using a POA to control all his
funds. (App.61a-60a) That meant in his mind
his fund did not belong to Diana Palmeri
like what the 2014 Will allegedly said.
Vanguard's USB also shown that Sydney
did not trust Curtin at all. When broker Kern
asked if Sydney can let Curtin fill out the
forms Sydney answered him in this way:
"No, no, he knows nothing about the forms.
. . . No, no. No, I'm no, no, he has—he doesn't
know anything about these forms, so I didn't
mention anything to him. He was so panicky
that Kern had to say, "Okay, okay, that was
just a question that had come up . . . (App.
59a).
8. Beside dismissing Vanguard's phone records,
they dismissed documents that were provided by themselves: Diana and Curtin's answers in their deposition;
the eye doctor's records, the New Jersey Court decision
and Sydney's handwritten autobiography. They even
dismissed Curtin's affirmation in April 2016 which
tried to hide Sydney's vision problem (App.159a line
23). They dismissed their letter that mentioned my
mental problem. (App.164a) They said those records
are "not part of the record" because "the documents
were not presented to the trial court by any party on
the motion for summary judgment". (App. la-2a)
Their reasons are ridiculous! As matter of the
fact Vanguard's transcripts were quoted in my lawyer

9

Richard Chan's motion as exhibits and were mentioned
in the Surrogate's Court hearing by both sides. The
existence of those documents were understood by
both parties during the discovery stage. We planned
to use and file them in the trial. The problem is
Judge Mella dismissed us in 45 minutes and did not
give us a trial at all. It made no sense to file those
records in the trial court anymore and we used them
in the appeal. We spend two years and $100,000 to
get those records and they would not allow us to use
it. Their desperations proof that they wanted to hide
some facts. How could we trust their affirmations when
they so dare to dismiss the facts? All the affirmations
they made are crucially affected this case and let us
review them again:
Curtin testified that Sydney could read with
a magnifying glass, even though a doctor's
note said before signing the will he was blind
in one eye, could not count fingers from 3 feet
away with another eye. One month later, tests
proved both his eyes had already blind.
Curtin testified that Sydney considered the
Palmeris were his family members and gave
all his estate to them. Even though Sydney
seriously stopped anybody from challenging
his 2006 Will in which he gave the other
Palmeris nothing and ordered Teresa forward
50% his estate to only Victor if he predeceased
her.
Curtin testified that Sydney was the only one
who gave him that instrument orally. Those
numbers in the instrument mean how to dis-

10

tribute his estate even though that instrument
mentioned nothing about altering a Will.
Curtin testified that Sydney indicated to
him to switch a 5% distribution from Diana to
Victor through a phone conversation.
Curtin testified that Sydney told him to keep
his accusations in the 2006 Will and make
sure his sons and grandchildren got nothing
in the 2014 Will.
Curtin testified that Sydney told him to eliminate Lewis Fields as a beneficiary. In the
2006 Will Lewis had the same inheritance
as Victor, 9 times of what Palmeris's children
had. (besides Victor those Palmeris got nothing in the 2006 will) In the 2016 Will, Victor
and Diana eventually got 75% of the $9
million dollars estate and Lewis got nothing.
Curtin testified that Sydney told him to
reduce his charity from $4.5 million dollars
to $ 1,500 . . . .
Curtin testified that no beneficiary was
present during the Will signing. Even though
Diana Palmeri once admitted that she knew
Curtin in the Will signing. (She later changed
back to Will reading and Curtin said there
was no Will reading at all).

11

CONCLUSION
All Curtin's affirmations were without back-up
materials. I repeated my arguments because they avoided discussing any of them in their October 28, 2019
Brief in Opposition. They misapplied questionable legal
theories such as a "probate execution" to misdirect this
Court. They denied facts and commit perjuries by
making affirmations
Judge Rita Mella listened to them and committed serious abuses of discretion. No State Supreme
Court provided proper oversight, refusing to even acknowledge that a final judgment has been issued and is
ripe for their review. Now they warn the U.S Supreme
court not to interfere in decisions made by the State
courts. Things they did were dirty and immoral. We
cannot make sure everybody is clean in this world but
we should at least prevent dirty people from messing
up our courtrooms. That is one of the reason we are
here.
Pia Fields will publish this brief as a book to let
people know this story and watch its ending . . . . She
believes people, particularly the Chinese would like
to know how things are run in the U.S. courthouses
when the Americans talk about justice. Hopefully by
selling books we can get the $100,000 legal fee back.

12

Respectfully submitted,

RICHARD J. FIELDS
PETITIONER PRO SE
2830 PITKIN AVENUE
BROOKLYN, NY 11208
(718) 235-0900

NOVEMBER 8 ,2019

